               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE
                                               




         National Railroad Passenger
        Corporation (Amtrak) Office of
        Inspector General Operational
                Independence

                       Audit Report




                                              October 28, 2011

Report Number FF-AR-12-001
                                                                      October 28, 2011

                                           National Railroad Passenger Corporation
                                                (Amtrak) Office of Inspector General
                                                          Operational Independence

                                                        Report Number FF-AR-12-001


IMPACT ON:
National Railroad Passenger                 WHAT THE OIG RECOMMENDED:
Corporation (Amtrak or Corporation) and     We recommended Amtrak report
the Amtrak Office of Inspector General      progress made in resolving the issues
(OIG).                                      discussed in this report; establish a
                                            single hotline managed by the Amtrak
WHY THE OIG DID THE AUDIT:                  OIG; reinforce the Amtrak OIG’s
The Council of the Inspectors General       responsibility for addressing fraud,
on Integrity and Efficiency (CIGIE)         waste, and abuse issues; develop a
requested the U.S. Postal Service OIG       plan for the Amtrak OIG to investigate
to conduct a review of the operational      potentially fraudulent employee injury
independence of the Amtrak OIG.             claims; and, in the interim, establish a
                                            process to refer potentially fraudulent
WHAT THE OIG FOUND:                         injury claims to the Amtrak OIG.
The Amtrak OIG and the Corporation
have made operational independence a        WHAT MANAGEMENT SAID:
high priority by undertaking                Amtrak management agreed with the
organizational changes and pursuing         findings and recommendations.
independence initiatives. The OIG and       Management agreed to report on their
the Corporation have resolved 11 of 15      progress in addressing independence
previously identified issues, including     items and develop plans and processes
many critical matters. Discussions are      to refer potentially fraudulent employee
ongoing to resolve the remaining issues.    injury claims to the OIG. Further the OIG
In addition, the structure and              will maintain the single fraud, waste, and
management of the hotline has resulted      abuse hotline; however, management
in sensitive issues regarding fraud,        stated the necessity for a Corporation
waste, and abuse not being                  complaint line for employment, safety,
appropriately referred to the OIG for       and ethics matters.
investigation. Finally, the Corporation
was not referring potentially fraudulent    AUDITORS’ COMMENTS:
employee injury claims to the OIG.          We consider Amtrak’s comments
Questions remain regarding the              responsive to the recommendations and
operational independence of the Amtrak      management’s corrective actions should
OIG until these issues are addressed.       resolve the issues identified in the
                                            report.

                                            Link to review the entire report
October 28, 2011




MEMORANDUM FOR:           THOMAS C. CARPER
                          CHAIRMAN, NATIONAL RAILROAD PASSENGER
                          CORPORATION BOARD OF DIRECTORS



FROM:                     David C. Williams
                          Inspector General

SUBJECT:                  Audit Report – National Railroad Passenger
                          Corporation (Amtrak) Office of Inspector General
                          Operational Independence
                          (Report Number FF-AR-12-001)

This report presents the results of our audit of the operational independence of the
National Railroad Passenger Corporation (Amtrak) Office of Inspector General (Project
Number 11BR005FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Tammy L. Whitcomb, assistant
inspector general for audit, or me at 703-248-2100.

Attachments

cc: The Honorable Ray LaHood
    Joseph H. Boardman
    Theodore (Ted) Alves
    Phyllis K. Fong
                                            TABLE OF CONTENTS
Introduction ..................................................................................................................... 1 

Conclusion ...................................................................................................................... 1 

Pursuit of Operational Independence .............................................................................. 2 

Allegations Made to the Corporation’s Ethics and Compliance Hotline ........................... 3 

Investigations of Potentially Fraudulent Employee Injury Claims .................................... 5 

Recommendations .......................................................................................................... 6 

Management’s Comments .............................................................................................. 7 

Evaluation of Management’s Comments ......................................................................... 8 

Appendix A: Additional Information ................................................................................. 9 

   Background ................................................................................................................. 9 

   Objective, Scope, and Methodology ............................................................................ 9 

   Prior Audit Coverage ................................................................................................. 10 

Appendix B: Progress Towards Amtrak OIG’s Operational Independence ................... 12 

Appendix C: Management’s Comments ........................................................................ 21 
National Railroad Passenger Corporation                                            FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence


Introduction

This report presents the results of our audit of the operational independence of the
National Railroad Passenger Corporation (Amtrak or Corporation) Office of Inspector
General (OIG) (Project Number 11BR005FF000). Our objective was to evaluate the
current operational independence of the Amtrak OIG. See Appendix A for additional
information about this audit.

The Consolidated Appropriations Act of 2010 1 included two provisions to assure
Congress the Amtrak OIG is operating independently from the Corporation. The first
provision required an Inspector General (IG) to determine whether the Corporation and
the Amtrak OIG have agreed on a set of policies and procedures for interacting with
each other that are consistent with the letter and spirit of the Inspector General Act of
1978 (IG Act), as amended. On March 17, 2010, the Farm Credit Administration (FCA)
IG issued a report concluding that the Corporation and the Amtrak IG agreed to a set of
policies and procedures for interacting with each other that is consistent with the letter
and the spirit of the IG Act. The second provision required that 1 year after such
determination was made, the Council of Inspectors General on Integrity and Efficiency
(CIGIE) appoint an IG to evaluate the current operational independence of the Amtrak
OIG. The CIGIE appointed the U.S. Postal Service OIG to review the current
operational independence of the Amtrak OIG.

Conclusion

The Amtrak OIG and the Corporation have made operational independence of the OIG
a high priority by undertaking significant organizational changes and pursuing
independence initiatives between the Corporation and the OIG. The OIG and the
Corporation implemented 11 out of 15 initiatives to remediate identified independence
issues, including establishing OIG independent personnel authority and improving
communications with the Corporation. However, the Corporation and the OIG have not
fully implemented all of the planned independence initiatives. For example, the OIG is
still working with the Corporation on issues related to the Corporation’s settlement of
matters which impact investigations and potential prosecution.

Additionally, the structure and management of the hotline has resulted in sensitive
issues regarding fraud, waste, and abuse not being appropriately referred to the OIG for
investigation. When we started our review, the primary Amtrak hotline was managed by
the Corporation, and the Corporation referred certain allegations to the OIG for review.
When we found cases and allegations that had not been properly referred, changes
were made so that all allegations coming into this hotline were also sent to the OIG.
However, this did not address needed anonymity or potential reprisal concerns that
could result from allegations going to the Corporation.


1
    Public Law 111-366, enacted December 16, 2009.
                                                     1
          This report has not yet been reviewed for release under FOIA or the
          Privacy Act. Distribution should be limited to those within the Postal
          Service with a need to know.
National Railroad Passenger Corporation                                         FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence

Questions remain regarding operational independence of the Amtrak OIG until the
Corporation and the OIG complete all initiatives to address operational independence
and the OIG takes over management of the hotline.

Pursuit of Operational Independence

In November 2009, the Amtrak board appointed the current IG who worked with the
Corporation to change the Amtrak policies and practices that were not consistent with
the IG Act. On March 4, 2010, Corporation management and the IG agreed on a new
relationship policy. The policy aligns with the IG Act and establishes the responsibility
and authority of the Amtrak OIG and the general principles for ensuring a productive
relationship between the OIG and the Corporation; and summarizes the Amtrak OIG
processes for conducting audits, evaluations, and investigations.

The IG has since realigned the audit and investigative components, emphasizing
compliance with federal auditing and law enforcement standards. He also addressed
significant deficiencies identified by consultants hired to evaluate the audit, evaluation
and inspection, and investigative components within the Amtrak OIG. However, many of
these actions were recently implemented or are still ongoing. For example:

   Amtrak OIG management stated they evaluated all open audits and investigations
    and closed 20 audits and 275 investigations. We discussed these closures with
    Amtrak OIG auditors and investigators and found that none were based on outside
    influence or considerations of the Corporation. Audits were closed because they
    were limited-scope audits and not conducted in accordance with auditing standards.
    Investigations were closed because they sat dormant for years or addressed
    administrative matters more appropriately handled by Corporation management. The
    new assistant inspectors general (AIG) for Audit and Investigation both stressed the
    importance of conducting higher level audits and investigations with more
    meaningful impact. During our audit, the Amtrak OIG had 22 ongoing audits and 91
    investigations which should conform with the new policies and, after completion, be
    evaluated for compliance with the new policies.

   In November 2010, the Amtrak OIG established an internal team to identify and
    resolve independence issues. The team has identified 15 action items to complete,
    some of which require joint actions by the OIG and the Corporation, and four of
    these action items remain open. Many critical items have been resolved by the
    Corporation and OIG or are discussed in this report. One of the items that remain
    open is the development of a Memorandum of Understanding (MOU) to address
    issues related to the Corporation’s settlement of matters which impact investigations
    and potential prosecution.

The Corporation and the OIG have made significant progress in addressing
independence issues and should continue their pursuit of operational independence.
Until all independence concerns are resolved, the OIG and the Corporation’s Board of



                                             2
National Railroad Passenger Corporation                                                                 FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence

Directors should report progress on these issues to Congress. (See Appendix B for
further information on the Amtrak OIG’s progress toward operational independence.)

Allegations Made to the Corporation’s Ethics and Compliance Hotline

In April 2007, the Corporation established a vendor maintained toll-free hotline to
ensure compliance with certain provisions of the SOX Act of 2002. 2 The same hotline
was used for reporting allegations of waste, fraud, and abuse in violation of the
American Recovery and Reinvestment Act (ARRA); 3 and retaliation, harassment, and
intimidation in violation of the Federal Rail Safety Act. 4 In addition to the Corporation’s
hotline, the Amtrak OIG has maintained a separate hotline since at least 1991 for
reporting all fraud, waste, and abuse. However, employees of the Corporation used the
Corporation’s hotline to report various types of allegations they should have reported to
the OIG. Table 1 identifies the number of allegations received by the Corporation and
OIG Hotlines.

                        Table 1 – Corporation and Amtrak OIG Hotline Allegations
                                      Corporation’s Ethics
                           Fiscal        and Compliance       Amtrak OIG
                            Year             Hotline             Hotline

                              2010                        303                            239

                              2009                        336                            97

                              2008                       105 5                           28
                        Source: Amtrak OIG Semiannual Reports to Congress and Corporation Hotline
                        Database.

We reviewed 924 6 allegations made to the Corporation’s Ethics and Compliance hotline
from January 2008 through May 2011. Because the Corporation, rather than the OIG,
administered this hotline, the Corporation often did not refer allegations to the OIG for
review when it should have. According to OIG records, the Corporation referred
23 allegations from the hotline and, according to the Corporation’s records, they
referred 38 out of the 924. We identified 42 allegations related to fraud, waste, and
abuse the OIG did not receive for review to determine whether an investigation was
warranted. These allegations should have been reviewed for investigation. In 37 of the
42 cases, the Corporation’s Office of General Counsel (OGC) referred the allegations to
the Amtrak Police Department (APD) or other internal managers. In two cases, the OGC

2
  Congress enacted Sarbanes-Oxley (SOX) to protect shareholders and the public from financial irregularities and
fraudulent practices in publicly traded companies.
3
  The Corporation received $1.3 billion in ARRA funding for use on a variety of projects to improve infrastructure and
railway transit.
4
  The Federal Rail Safety Act of 1970 (Public Law 91-458) authorized the states to work with the Federal Railroad
Administration to enforce federal railroad safety regulations.
5
  Does not contain allegations from first quarter, fiscal year (FY) 2008.
6
  In addition to the 744 allegations in Table 1, we reviewed 180 from October 1, 2010, through June 8, 2011.


                                                           3
National Railroad Passenger Corporation                                                           FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence

responded to the allegation directly and, in three cases, the OGC suggested the
complainant contact the Department of Labor (DOL). Table 2 shows the types of
allegations we believe the OIG should have reviewed for investigation.

              Table 2 – Investigations Not Referred to the Amtrak OIG
      Number of
      Allegations        Type of Allegation Referred to

                              Executive or                APD – 11
      18                      Employee                    Internal Management – 4
                              Misconduct                  OGC – 2
                                                          Referred complainant to DOL – 1
                              Contract or Other           APD – 9
      11                                                  Internal Management – 1
                              Fraud
                                                          Referred complainant to DOL – 1
      5                       Discrimination              Internal Management – 3
                                                          APD – 2
                                                          Internal Management – 5
      8                       Other                       APD – 2
                                                          Referred complainant to DOL – 1
                                                          APD – 24
                                                          Internal Management – 13
      42                      Total                       OGC – 2
                                                          Referred complainant to DOL – 3

    Source: Based on U.S. Postal Service OIG review of allegations from the Corporation’s Ethics and Compliance
    Hotline.

The Amtrak OIG did not investigate allegations from the Corporation’s hotline because
the Corporation was not referring all of the allegations to the Amtrak OIG for
investigation. Some of the allegations not referred were sensitive internal executive
misconduct allegations, in which operational independence in the investigation is
critical. Twenty-two of the 24 allegations referred to the APD were allegations made
against APD personnel, including nine against senior level executives and managers.
According to the Corporation’s OGC, the Corporation typically referred allegations
against APD employees to the APD, not to the Amtrak OIG. The IG Act requires the IG
to prevent and detect fraud in the Corporation's programs and operations. Further, the
Corporation’s policy requires employees to report suspected violations of law or
corporate policy that could result in fraud or abuse to the Amtrak OIG.

In February 2010, the Amtrak OIG recognized they should receive certain types of
allegations made to the Corporation’s hotline and worked with the Corporation to
receive the hotline allegations simultaneously. However, the Amtrak OIG elected to
exclude allegations from categories they thought were related to management
functions, including employee and customer relations and discrimination. The Amtrak
OIG did not realize these five categories included 61 percent of the allegations. During
our review of allegations reported to the Corporation’s hotline since February 2010,
14 of the 42 allegations not referred to the OIG were in the categories excluded by the


                                                      4
National Railroad Passenger Corporation                                                                FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence

Amtrak OIG. We believe these should have been considered for investigation. Upon our
bringing this to Amtrak OIG management’s attention, they immediately requested, and
began receiving, all allegations made to the Corporation’s hotline. The Amtrak OIG
reviews allegations to identify where a criminal investigation is warranted and notifies
the Corporation within 48 hours of those they intend to pursue.

In September 2010, the Corporation’s president and chief executive officer (CEO)
issued a letter to all employees stating that the OIG serves as an independent and
objective unit, playing an important role in preventing and rooting out fraud, waste,
mismanagement, and abuse in Amtrak programs and operations. However, we believe
the existence of two separate hotlines – the OIG and the Corporation’s Ethics and
Compliance hotlines – may have caused some confusion as to where to report such
allegations, as we found 7 of the 42 allegations not referred were identified after the
letter was issued in September 2010.

Consequently, we believe there should be only one hotline and the Amtrak OIG should
manage it. During this review, the Corporation and Amtrak OIG changed the hotline
process so they both simultaneously receive all allegations sent to the Corporation’s
Ethics and Compliance hotline. However, this process does not assure needed
employee anonymity or provide the OIG with the opportunity to investigate serious
matters without potential Corporation involvement. With one hotline, the Amtrak OIG
would be responsible for determining the appropriate action to take on hotline
allegations, such as initiating an investigation or audit or forwarding the allegation to the
Corporation for management action. We benchmarked with 46 other OIGs and
determined that 28 (61 percent) maintained a single hotline for themselves and their
host agencies. 7 Having one OIG-managed hotline prevents employee confusion about
where they should report issues, including fraud, waste, and abuse; and contributes
toward the Amtrak OIG’s operational independence.

Investigations of Potentially Fraudulent Employee Injury Claims

The Corporation settled 1,569 employee injury claims for $120.7 million from
January 2008 through May 2011. Although the Corporation’s OGC hired private
investigators, to control the costs of on-duty injuries at Amtrak (costing $16.2 million
between January 2008 and May 2011), none of these claims were referred to the OIG
to be investigated for fraud. This extensive effort is designed to assist in determining the
facts surrounding employee injury claims; however, in doing so, the investigators are
very likely to uncover indications of fraud.

Our review of injury claims identified potentially fraudulent cases. For example,
information on file for one case indicated one employee injured his hand when he was

7
 We identified 18 other federal agencies, departments, and designated federal entities that maintained multiple
hotlines, including one within the OIG. For example, the Department of Defense OIG has a hotline, as well as the
military service audit agencies (for example, the Army Audit Agency). Some of the services have multiple hotlines,
say for base commanders. Other agencies have bureaus who maintain multiple hotlines, some of which may get
allegations related to fraud, waste, and abuse.


                                                          5
National Railroad Passenger Corporation                                        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence

bitten by an insect and was unable to work due to the injury. The private investigator
surveillance showed the employee was able to work a side business which required
significant amounts of manual labor. We also identified employees who submitted
multiple claims and received settlements from the Corporation. Both of these examples
included fraud indicators; however, the Corporation did not refer any of these cases to
the Amtrak OIG for investigation.

The IG Act requires the IG to prevent and detect fraud in the Corporation's programs
and operations. Further, the Corporation’s policy requires employees to report
suspected violations of law or corporate policy to the Amtrak OIG. The Corporation’s
OGC did not refer potentially fraudulent employee injury cases to the Amtrak OIG
because their Claims staff did not have criteria available to evaluate claims for fraud or
abuse. They evaluate cases from the perspective of limiting the liability to the company,
not for violations of criminal statutes.

To give perspective, the Postal Service OIG assigned special agents to investigate
similar employee injury claims that indicate fraud. These employee injury claims
investigations have resulted in cost savings or avoidances, arrests, and administrative
personnel actions, including removals, suspensions, and letters of warning.

Amtrak’s employee injury claims database used to track open cases did not have a
mechanism in place to classify suspected fraudulent cases for referral to the Amtrak
OIG. As a result, fraudulent employee injury claims are not investigated and referred for
legal or administrative action.

During our review, the Amtrak OIG agreed there was a need to investigate potentially
fraudulent employee injury claims and planned on pursuing investigations of such
claims. The Amtrak OIG and the Corporation met to discuss working together to identify
potentially fraudulent employee injury claims. The OIG and Corporation should continue
working together and develop a plan for the OIG to evaluate and investigate potentially
fraudulent employee injury claims. OIG involvement in investigating potentially
fraudulent claims should contribute to reduced program costs and help deter injury
claim crimes.

Recommendations

We recommend the chairman, National Railroad Passenger Corporation Board of
Directors:

1. Request the National Railroad Passenger Corporation (Amtrak) Inspector General to
   report in the Semiannual Report to Congress any progress made in completing
   actions to address all open independence items with Amtrak and recommendations
   in this report, and comment on the Inspector General’s report in the Chairman’s
   transmittal letter.




                                            6
National Railroad Passenger Corporation                                        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence

2. Combine the National Railroad Passenger Corporation’s Ethics and Compliance
   hotline with the National Railroad Passenger Corporation (Amtrak) Office of
   Inspector General (OIG) hotline into a single hotline managed by the Amtrak OIG.
   Further, the Corporation and the Amtrak OIG should jointly develop policy and
   procedures that allow the Amtrak OIG to review all hotline allegations first and
   determine whether to investigate further or refer to the Corporation for administrative
   action, as appropriate.

3. Reinforce policy requiring all employees to report suspected violations of fraud,
   waste, and abuse to the National Railroad Passenger Corporation (Amtrak) Office of
   Inspector General (OIG). Remind staff that the Amtrak OIG is the primary entity
   within the Amtrak Corporation to address issues or concerns related to fraud, waste,
   and abuse.

4. Request that the National Railroad Passenger Corporation (Amtrak) management
   and the Office of Inspector General (OIG) jointly develop a plan for the OIG to
   evaluate and investigate potentially fraudulent employee injury claims, including
   outlining the Corporation’s and the OIG’s roles and responsibilities and identifying
   funding required by the OIG to conduct these investigations.

5. Until a plan is developed for the National Railroad Passenger Corporation (Amtrak)
   Office of Inspector General (OIG) to investigate potentially fraudulent employee
   injury claims, establish a process for the Corporation to refer those claims to the
   Amtrak OIG.

Management’s Comments

Amtrak’s Board of Directors agreed with the findings and recommendations. The Amtrak
OIG will include their progress toward addressing independence items and the
recommendations in this report in the Semiannual Report to Congress. The board
agreed that the OIG should maintain one hotline for fraud, waste, and abuse; however,
they stated there remains a need for a Corporation complaint line for employment,
safety, and ethics matters. The Amtrak complaint line serves as a necessary legal
compliance function, provides for reporting of passenger safety and ethics incidents and
employee relations matters, and offers economies and efficiencies through a low-cost
reporting technology. Management plans to take steps to differentiate the complaint line
from the OIG hotline. This includes not referring to the complaint line as a hotline;
providing initial prompts to callers directing fraud, waste, and abuse items to the OIG
hotline; training employees on the differences between the hotline and complaint line;
and posting notices in common areas for all employees explaining the purpose of the
hotline and the complaint line. The board agreed the OIG should continue with current
access to the complaint line. Further the Amtrak president and CEO will annually
communicate requirements for all employees to report suspected violations of fraud,
waste, and abuse to the OIG.




                                            7
National Railroad Passenger Corporation                                        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence

Amtrak and the OIG are working to establish guidance and a process by December 31,
2011, for referring potentially fraudulent employee injury claims to the OIG. The board
offered specific guidance to the Corporation on working with the OIG to identify criteria
and refer claims appearing to be fraudulent to the OIG; and continuing management of
employee injury claims including the investigation, litigation, and disposition of
settlements subject to referrals and cooperation with the OIG. The board also offered
guidance for the OIG to use discretion with investigations to accommodate functions
and interests of both the Corporation and the OIG.

See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.




                                            8
National Railroad Passenger Corporation                                                             FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence


                                Appendix A: Additional Information

Background

The Consolidated Appropriations Act of 2010 (the act) included two provisions to assure
Congress that the Amtrak OIG is operating independently from the Amtrak Corporation.
First it required an IG determine if Amtrak and the Amtrak OIG have agreed upon a set
of policies and procedures for interacting with each other that are consistent with the
letter and spirit of the IG Act. Second, the act required that 1 year after such
determination was made, the CIGIE appoint an IG to evaluate the current operational
independence of the Amtrak OIG.

On January 8, 2010, CIGIE appointed the FCA IG to conduct a review to determine that
Amtrak and its IG “have agreed upon a set of policies and procedures for interacting
with each other” that are consistent with the IG Act. On March 17, 2010, the FCA IG
issued a report 8 concluding that the Corporation and the Amtrak IG agreed to a set of
policies and procedures for interacting with each other that is consistent with the letter
and the spirit of the IG Act.

To complete the second provision outlined in the act, CIGIE appointed the Postal
Service OIG to review the current operational independence of the Amtrak OIG.

Objective, Scope, and Methodology

Our objective was to evaluate the operational independence of the Amtrak OIG. To
accomplish the objective we:

   Interviewed Corporation and Amtrak OIG officials and staff to discuss the operational
    independence of the Amtrak OIG. This included visits to the Boston, MA; Chicago,
    IL; Los Angeles, CA; and Philadelphia, PA, field locations.

   Reviewed audit and investigative plans, projects, and reports; and interviewed staff
    to determine if the Corporation inappropriately influenced OIG decisions.

   Reviewed audit follow-up procedures by interviewing Amtrak OIG employees and
    the Corporation’s audit liaison.

   Reviewed Corporation and Amtrak OIG policies and procedures from an
    independence perspective.

   Identified and evaluated past, present, and potential future issues related to
    operational independence.


8
 FCA report The National Railroad Passenger Corporation (Corporation or Amtrak) and its Office of Inspector
General, dated March 17, 2010.


                                                        9
     National Railroad Passenger Corporation                                                            FF-AR-12-001
      (Amtrak) Office of Inspector General
      Operational Independence

        Reviewed settled Corporation employee injury claims 9 for $120.7 million during
         January 2008 through May 2011.

     We conducted this audit from November 2010 through October 2011 in accordance with
     generally accepted government auditing standards and included such tests of internal
     controls as we considered necessary under the circumstances. Those standards require
     that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
     reasonable basis for our findings and conclusions based on our audit objective. We
     believe that the evidence obtained provides a reasonable basis for our findings and
     conclusions based on our audit objective. We discussed our observations and
     conclusions with management on September 22, 2011, and included their comments
     where appropriate.

     We assessed the reliability of data obtained from the Corporation’s database by
     interviewing knowledgeable officials and performed reasonableness tests on that data.
     We determined that the data were sufficiently reliable for the purposes of this report

     Prior Audit Coverage

     There have not been any prior audits of Amtrak OIG independence. However, the
     following documents pertain to the subject review:

              Title                        Author                 Date                      Summary
Letter to Chairman Issa, Chairman      Calvin L. Scovell         3/23/2011      The letter concluded that the
Mica, and Ranking Member               III, Inspector                           departure of the former IG did not
Grassley regarding the U.S.            General, DOT                             constitute a removal based on
Department of Transportation                                                    federal employment law; however,
(DOT) OIG review of the                                                         this basis may frustrate the
departure of the former Amtrak IG                                               intended purpose of the 30-day
                                                                                notice requirement to Congress.
Recent Allegations against             Majority Staff,        11/16/2010        The Majority Staff memorandum
Thomas C. Carper, Chairman of          Office of                                concluded that the IG is working to
Amtrak, and Eleanor Acheson,           Oversight and                            restore trust with the Corporation;
General Counsel of Amtrak              Investigations,                          and that the Minority Staff report
                                       Senate                                   did not provide a full picture of the
                                       Committee on                             deteriorating relationship between
                                       Commerce,                                the Corporation and the former IG.
                                       Science &
                                       Transportation




     9
       Work-related injuries to Amtrak employees are subject to the Federal Employers’ Liability Act, which is a
     fault-based, contested process, rather than a no-fault system like the workers’ compensation system. Injured
     employees must prove railroad negligence or a defect in railroad equipment. An employee’s compensation is reduced
     in proportion to the employee’s own comparative fault. Damages include compensation for economic loss as well as
     the full range of tort damages, including pain and suffering, disfigurement, and mental anguish. Damages are
     determined through negotiation or by jury trial in state or federal court.


                                                            10
     National Railroad Passenger Corporation                                                   FF-AR-12-001
      (Amtrak) Office of Inspector General
      Operational Independence




The Removal of the Inspector          Minority Staff        9/13/2010   The report concluded that the
General for The National Railroad     Report, 111th                     Amtrak Board of Directors
Passenger Corporation (Amtrak)        Congress                          removed the former IG without
                                                                        prior notice to Congress, as
                                                                        required.
The Amtrak Office of Inspector        National          August 2010     The report identified immediate
General – An Organizational           Academy of                        and long-term recommendations
Assessment                            Public                            focused on eight benchmarked
                                      Administration                    areas to enhance OIG operations.
                                      (NAPA)
The National Railroad Passenger       FCA, Office of        3/17/2010   The evaluation determined that the
Corporation (Corporation or           IG                                Corporation and the IG agreed to a
Amtrak) and its Office of Inspector                                     set of policies and procedures for
General                                                                 interaction consistent with the act.
System Review Report on the           Legal Services        9/30/2009   The OIG received a peer review
Amtrak's Office of Inspector          Corporation,                      rating of “pass” with deficiencies
General Audit Organization            Office of IG                      concerning the system of quality
                                                                        control for the audit function of the
                                                                        Amtrak OIG.
Report on Matters Impairing the       Willkie Farr &        6/18/2009   The white paper outlined
Effectiveness and Independence        Gallagher, LLP                    recommendations for the
of the Office of Inspector General                                      Corporation to comply with the IG
of the National Railroad                                                Act and reestablish the OIG's
Passenger Corporation (Amtrak)                                          independence.




                                                       11
National Railroad Passenger Corporation                                       FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence


      Appendix B: Progress Towards Amtrak OIG’s Operational Independence

New IG Appointed in November 2009

The National Railroad Passenger Corporation (Amtrak) is a government-owned
corporation created by the Rail Passenger Service Act in 1970. Because the
Corporation receives federal funding, Congress established the Amtrak OIG in 1989. In
November 2009, the board appointed the current IG, who accepted the position in the
midst of concerns being expressed by Congress regarding the relationship between the
Corporation and the previous IG, who was appointed in 1989. The new IG undertook
several initiatives to establish the Amtrak OIG as an independent OIG, as discussed
below.

Improved Corporation and OIG Relationship

On March 4, 2010, Corporation management and the IG reached agreement on a new
relationship policy. The policy aligns with the IG Act and establishes the responsibility
and authority of the Amtrak OIG and the general principles for ensuring a productive
relationship between the OIG and the Corporation; and summarizes the Amtrak OIG
processes for conducting audits, evaluations, and investigations. The relationship policy
served as the basis for the FCA IG review. The FCA IG review concluded the
relationship policy reiterated the role and authorities of the Amtrak OIG and was
consistent with the letter and spirit of the IG Act.

Further, the IG meets with Corporation management on a continual basis. He attends
the monthly Corporation board meetings including private executive sessions with the
board. He also attends weekly executive committee meetings and meets privately with
the president and CEO once a month. According to the IG, there have been no
instances of resistance to or restrictions on Amtrak OIG oversight.

Reviews of the Amtrak OIG

Upon assuming his position at Amtrak, the new Amtrak IG quickly recognized
deficiencies within audit, inspections and evaluations, and investigations. The IG
immediately began taking action to address deficiencies cited in the following reviews.

   On September 30, 2009, the Legal Services Corporation issued a peer review report
    on the system of quality control for the audit function of the Amtrak OIG. The report
    stated the Amtrak OIG received a “pass with deficiencies” rating. The report
    concluded the OIG’s policies and procedures were out-of-date and did not fully
    incorporate current Government Auditing Standards. The OIG revised several
    policies and procedures in an effort to fully incorporate Government Auditing
    Standards. They also implemented changes in audit processes, quality control, and
    training procedures that addressed deficiencies identified in the 2009 peer review.
    For example, on April 12, 2010, the IG issued a memorandum to all staff outlining
    new audit procedures, including new quality control documents that all projects need


                                            12
National Railroad Passenger Corporation                                        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence

    to include, such as report and work paper quality checklists, cross-indexed reports,
    and statements of independence. In addition, audit and evaluation staff attended a
    training course in performance auditing. The internally developed course included
    training in audit evidence, documentation and report writing, and newly established
    Amtrak OIG policies and procedures for conducting audits.

   The Amtrak OIG hired a consultant to conduct a quality assessment review of its
    Investigations unit. In August 2010, the consultant issued a report stating the Amtrak
    OIG system of internal safeguards and management procedures were not in
    compliance with the quality standards established by CIGIE. The report identified
    deficiencies that required corrective action prior to the Amtrak OIG receiving a full
    compliance rating from an external peer review. The Amtrak OIG must complete
    such a review to obtain statutory law enforcement authority. Under the Attorney
    General Guidelines for Offices of IG with statutory law enforcement authority, each
    OIG must certify that every investigator who will be exercising law enforcement
    authority has completed the Criminal Investigator Training Program at the Federal
    Law Enforcement Training Center (FLETC), or an equivalent program. According to
    the consultant’s review, only five of the 26 investigators had completed the required
    FLETC training, and one was attending the training during the review. Nineteen
    Amtrak OIG criminal investigators had not completed a formal basic criminal
    investigator’s training course at FLETC. The review also pointed out that the Amtrak
    OIG lacked an orderly and systematic information management system, allowing
    them to efficiently track, analyze, and report workload data, results and
    accomplishments described in the Quality Standards for Investigations. The report
    supported the IG’s decision to completely reorganize the Office of Investigations.

Reorganization of the Amtrak OIG

One of the first tasks the new IG did upon joining the Amtrak OIG was to reorganize the
office to align similarly to other federal OIGs. When the IG took office, the head of the
offices of Audit and Investigations directly reported to the IG as a deputy IG. The IG
created a new deputy IG position and separated the previously consolidated roles of
AIG for Investigations and OIG Counsel into two positions: an OGC and an Office of
Investigations. The IG hired a new deputy IG, AIG for Investigations, AIG for Audit, two
deputy AIGs for Investigations, and four senior directors for audit. The new hires
brought an average 27 years of experience from other federal OIGs and the
Government Accountability Office. In June 2011, the IG reorganized the Investigative
unit by abolishing the old positions and requiring all agents to reapply for newly
established positions that meet federal law enforcement standards. Once the Office of
Investigations meets the prerequisites established in the Attorney General guidelines,
they will seek statutory law enforcement authority.

In addition to reorganizing the agency, the IG also changed the position titles and
descriptions to become consistent with other federal OIGs. The previous IG had created
multiple titles to circumvent compensation restrictions imposed on them by the
Corporation human resource policies. On February 11, 2011, the current OIG and the


                                            13
National Railroad Passenger Corporation                                        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence

Corporation signed a delegation of authority clarifying the OIG’s independent hiring
authority as authorized by the IG Act. This delegation of authority allowed the OIG to
align position titles and descriptions with those of other federal OIGs. These
organizational changes align Amtrak OIG with other federal OIGs. Table 3 identifies the
new and old position titles.

                                Table 3 – Position Titles
            New Position Titles                      Old Position Titles
                              Office of Investigations
    AIG – Investigations                   Deputy IG – Investigations and
                                           General Counsel
    Deputy AIG Investigations              Chief Inspector
    Special Agent-in-Charge                Regional Special Agent-in-Charge
    Assistant Special Agent-in-Charge      Supervisory Special Agent
    Criminal Investigator                  Senior Special Agent
    Investigative Analyst                  Principal Special Agent
    Principal Technical Applications and Special Agent
    Document Control
    Coordinator, Loss Prevention           Investigative Analyst
    Analyst, Loss Prevention               Senior Technical Agent Document
                                           Control
    Analyst                                Loss Prevention Analyst/Coordinator
                                           Loss Prevention Analyst
                                   Office of Audit
    AIG – Audit                            Deputy IG – Audit
    Senior Director, Audit                 Senior Director, Audit
    Audit Manager                          Senior Director, Audit & Services
    Senior Auditor                         Audit Director
    Auditor                                Audit Project Manager
                                           Manager-Audits
                                           Information Technology (IT) Audit
                                           Manager
                                           Audit Project Supervisor
                                           Senior Auditor
                                           Senior IT Specialist/Auditor
                                           Principal Auditor
                                           ARRA Principal Auditor
                                           ARRA Analyst
                                           Audit Assistant
  Source: Amtrak OIG

Refocused the Offices of Audit and Investigations

In addition to aligning the organizational structure to be consistent with other federal
OIGs, the Amtrak OIG refocused the type of audits and investigations they performed.


                                            14
National Railroad Passenger Corporation                                       FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence



   In March 2010, the Amtrak OIG issued a 5-year strategic plan. The strategic plan set
    forth the OIG’s strategic outline for promoting positive change, maximizing efficiency
    and value in their work, and leading by example in creating a model organization.
    The plan is aligned with the goals, objectives, strategies, and performance measures
    to support the Corporation’s new mission and goals.

   During FY 2011, new Amtrak OIG management evaluated all open audits and
    investigations and closed those they did not believe met auditing standards, were
    dormant, or were administrative in nature. In total, the Amtrak OIG cancelled or
    closed 20 audits and 275 investigations. The Amtrak OIG did not cancel or close any
    of the audits or investigations based on outside influence or considerations of the
    Corporation. Audits were closed because they were limited scope audits and were
    not conducted in accordance with auditing standards. This was a key finding in the
    September 2009 peer review report. The OIG closed investigations because they sat
    dormant for years or addressed administrative matters more appropriately handled
    by Corporation management. The new AIGs for Audit and Investigation stressed the
    importance of conducting higher level audits and investigations with more
    meaningful impact. We interviewed 47 auditors and investigators and concluded that
    the decisions to close projects were always the OIG’s decision and not influenced by
    the Corporation. Currently, the Amtrak OIG has 22 ongoing audits and 91 ongoing
    investigations.

NAPA Organizational Assessment

The Amtrak IG commissioned the NAPA to conduct an organizational assessment of
the Amtrak OIG. The assessment was intended to help the OIG implement the goals in
their strategic plan by identifying its core organizational strengths and weaknesses and
developing specific, prioritized actions to improve OIG processes, policies, and
management practices. NAPA issued their report in August 2010, identifying eight areas
where the Amtrak OIG can enhance its operations, one of which was independence. In
addition, NAPA concluded the OIG has been performing internal audit/control functions
for the Corporation by conducting audits of invoices submitted by other railroads. They
suggested the Corporation should not rely on the Amtrak OIG to provide these internal
control functions. NAPA concluded that it will take time for both OIG and Corporation
staff to embrace best practice concepts of independence and transparency, but it
appeared that everyone recognizes that it needed to happen. They recommended the
OIG:

    1. Continue to have conversations with Amtrak management and the board about
       its role and resolve issues as they arise.




                                            15
National Railroad Passenger Corporation                                                                  FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence



     2. Use the relationship policy to educate all stakeholders about the roles and
        responsibilities of the Amtrak OIG and the Corporation. Also, develop a practical,
        applied definition of “independent yet transparent.” 10

     3. Work with Amtrak management and the board to eliminate Amtrak-imposed
        restrictions on the OIG’s use of funds, hiring actions or other resources that may
        adversely affect the OIG’s ability to fulfill its responsibilities. For example, the
        NAPA recommended that the OIG’s relationship with Amtrak Human Resources
        be reviewed and redefined so that OIG recruitment is not stalled or inhibited.

We determined the Amtrak OIG and the Corporation implemented each of the
recommendations related to independence. Further, the OIG plans, at the beginning of
FY 2012, to discontinue performing the internal audit and control function of auditing
invoices the Corporation pays to other railroads. In addition, the OIG identified and
addressed, or continues to address, additional issues related to independence.

Independence Issues Identified by the Amtrak OIG

The Amtrak OIG established an internal team to address all known and newly identified
independence issues. The independence team identified 15 action items to achieve
over an 18 month period, including development of a definition of “independent yet
transparent” as it applies to the Amtrak OIG. Additionally, the Amtrak OIG is working to
resolve other areas of concern through MOU with the Corporation. Table 4 outlines
those areas and our assessment of the implemented measures.

                            Table 4 – Amtrak OIG 18-Month Action Plan
                                                                                            Postal Service OIG
     Action Item                                Status                                          Assessment
1. Improve OIG                The IG meets with Corporation                                 We agree with the
communications                management on a continual basis. He                           actions taken to
with Corporation              attends monthly Corporation board                             resolve the action
management and                meetings including private executive                          item.
the board.                    sessions with the board. He also attends
                              weekly executive committee meetings and
                              meets privately with the president and
                              CEO once a month.




10
   “Independent yet transparent” recognizes the difference between providing enhanced visibility for the results of the
OIG’s work and the need for the OIG to maintain both independence and confidentiality during activities such as
audits and investigations, in order to stay within the law and preserve legal privileges on issues such as individual
privacy, grand jury restrictions, or investigative techniques.


                                                          16
National Railroad Passenger Corporation                                          FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence


2. Develop a              The OIG defined “independent yet              We agree with the
definition of             transparent” as recognizing the difference    action taken to
“independent yet          between providing enhanced visibility for     resolve the action
transparent” as it        the results of the OIG’s work (for example,   item.
applies to the            reports) and the need for the OIG to
Amtrak OIG.               maintain independence and confidentiality
                          during activities such as audits and
                          investigations, in order to stay within the
                          law and preserve legal privileges on issues
                          such as individual privacy, grand jury
                          restrictions, and investigative techniques.
3. Restrict               The OIG implemented a separate e-mail         We agree with
Corporation access        system and contracted with the National       actions taken to
to OIG IT systems.        Aeronautics and Space Administration to       resolve the action
                          host both the Amtrak Investigative            item.
                          Management Systems case management
                          and TeamMate audit management
                          systems. Further, the Corporation updated
                          the IT policy to include an OIG protocol
                          MOU.
4. Establish              The IG documented the delegation of           We agree with
independent               authority to the vice president, Human        actions taken to
personnel authority.      Resources, which sets forth the scope of      resolve the action
                          services to be provided by the Corporation    item.
                          and established a mutual understanding
                          regarding IG personnel decision authority.
5. Establish the          The Corporation provided an interim           We agree with the
OIG’s role in Ethics      solution through a simultaneous feed of       interim actions
and Compliance            Ethics hotline complaints from the vendor     taken; however, we
and ARRA Hotline.         to the OIG. The OIG drafted a MOU to          recommend the
                          document the process; however, a solution     Ethics and
                          is needed for instances of complaints sent    Compliance hotline
                          directly to the OGC.                          be combined with
                                                                        the OIG hotline.
6. Establish the OIG      The OIG sent an engagement letter to the      We agree with
role with                 chief financial officer describing a phased   actions taken to
independent public        implementation plan for OIG monitoring of     resolve the action
accountants (IPA)         the IPA and a 3-year audit plan.              item.
for financial             Additionally, the Audit and Finance
statement audits.         Committee of the board adopted a Charter
                          on March 11, 2011, to include the role of
                          the OIG.




                                              17
National Railroad Passenger Corporation                                            FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence


7. Define the             The OIG established working relationships       We agree with
Corporation’s             with all Corporation departments to obtain      actions taken to
responsibility to         the required services.                          resolve the action
provide certain                                                           item.
items and services
for OIG use, at no
charge to the OIG,
pursuant to §6(c) of
the IG Act.
8. Define the chief       The Corporation revised the IT Policy to        We agree with
information officer’s     include the OIG protocol MOU with a             actions taken to
involvement with          policy for independent purchase authority.      resolve the action
OIG purchases of IT                                                       item.
equipment,
software, and
services.
9. Develop an             The OIG issued a directive to employees         We agree with
internal procedure        and updated audit policies to cover any         actions taken to
for alerting the IG of    new issues that arise.                          resolve the action
new instances                                                             item.
impeding
independence.
10. Develop a             The OIG created a spreadsheet to track          We agree with
database to track         known independence issues and updates           actions taken to
independence              the spreadsheet based on progress made          resolve the action
issues.                   to resolve these issues.                        item.
11. Corporation’s         The OIG contacted other OIG offices and         We agree with
indemnification of        private corporations, including railroads, to   actions taken to
employees who are         determine industry best practices. The          resolve the action
subject to (or            board agreed with the OIG’s proposed            item.
witnesses for) OIG        changes to the Corporation’s policy which
investigations.           excludes employees who are a witness or
                          subject of an OIG investigation.




                                               18
National Railroad Passenger Corporation                                                             FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence


12. Review and               The Corporation and OIG have reviewed          This is still open.
revise Corporation           and agreed to policy changes with respect
policies and                 to existing policies. Most of these changes
processes with               have been incorporated into official policy.
embedded                     The OIG has also met with corporate
restrictions on OIG          policy stakeholders and discussed with
authority or                 and made them aware of basic
impairment of                independence concerns in preparing and
independent direct           drafting future policies. In addition, the OIG
access. Develop              has prepared an internal policy for
separate                     addressing reviewing or commenting upon
supplemental OIG             company policies in the future.
policies or
exemptions where
necessary.
13. Establish the            The OIG is working with the Corporation to                This is still open.
OIG’s role as it             develop an MOU that will address the
relates to the               issue.
Corporation’s
settlement of
matters which
impact
investigations or
potential
prosecution. This
includes
confidentiality
agreements which
may prevent the
OIG from gaining
unrestricted access
to information. 11
14. Define the OIG’s         The OIG drafted an independent                            This is still open.
Independent                  procurement policy.
Contracting
Authority.




11
  The Amtrak OIG is concerned that the Corporation may include confidentiality agreements or other language in
settlement agreements that may restrict their statutory obligation to report issues to Congress or the public.


                                                       19
National Railroad Passenger Corporation                                           FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence


15. Restrict physical     The OIG is reviewing the status of physical   This is still open.
access to OIG work        security at all OIG work locations to
spaces.                   determine the effect on independence and
                          scope of additional work required. The
                          Corporation and the OIG have agreed to
                          certain basic matters; however, the OIG
                          has continued to review each location,
                          working to reach understandings with the
                          company and building owners regarding
                          access and to secure all OIG work
                          locations.




                                              20
National Railroad Passenger Corporation                        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence



                           Appendix C: Management’s Comments




                                          21
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          22
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          23
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          24
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          25
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          26
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          27
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          28
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          29
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          30
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          31
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          32
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          33
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                                        \

                                          34
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          35
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          36
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          37
National Railroad Passenger Corporation        FF-AR-12-001
 (Amtrak) Office of Inspector General
 Operational Independence




                                          38
